                   	
                   	
                   	
                   	
                   	
                  	
    Audit	of	NARA's	Field	Offices
	
        Acquisition	Activity
		
                  	
    OIG	Audit	Report	No.	14‐05
	
                  	
	                      	
                  	
          	March	11,	2014
	
	    	
Table of Contents 



Executive Summary ...................................................................................... 3
 

Background.................................................................................................... 4
 

Objectives, Scope, Methodology .................................................................. 6
 

Audit Results ................................................................................................. 7
 

Appendix A – Level I Contracting Officer Training Requirements ...... 15
 

Appendix B – Acronyms and Abbreviations ............................................ 16
 

Appendix C – Management’s Response to the Report ............................ 17
 

Appendix D – Report Distribution List .................................................... 18
 
                                                                         OIG Audit Report No. 14-05


Executive Summary

The National Archives and Records Administration’s (NARA) Office of Inspector General
(OIG) completed an audit of field office acquisitions activity to determine if field office contracts
are awarded in accordance with the Federal Acquisition Regulations (FAR) and other relevant
authorities. We also evaluated the adequacy of management controls over these acquisitions.

Contracting officers (CO) outside the Washington, DC area make purchases, subject to the
limitations of their contracting officer's authority, for their field office(s). COs in the field are
limited to awarding contracts up to $25,000. In 2011, the Acquisitions Services Division
established a field office support team comprised of three experienced COs and gave this team
oversight responsibility for field office COs and buyers. The support team reviews each contract
to ensure compliance with the FAR and internal NARA policy prior to awarding the contract.

Our Audit determined field office contracts appeared to generally be awarded in compliance with
the FAR1, and management controls over these acquisitions appeared to generally be adequate.
However, increased attention is needed to further strengthen contracting activity within NARA
field offices. Specifically, we noted the following areas that require additional attention:

       	 Field office COs did not receive required training prior to obtaining their CO certificate
          of appointment. In addition, proficiency training was not taken by all field COs in order
          to maintain their CO authority.

       	 Completed contracts were not closed out in a timely manner in accordance the FAR.

       	 All field office contracts are not being reviewed by the field office support team for
          compliance with the FAR prior to award.

       	 NARA guidance for approval of small and small disadvantaged business utilization
          exceptions is not consistent.

We made four recommendations to address these findings and further strengthen oversight of
contracting activity at NARA field offices.




1
    Our audit did not include a review of FAR clauses.
                                                   Page 3
                                National Archives and Records Administration
                                                                     OIG Audit Report No. 14-05


Background

An acquisition is the procurement by contract of supplies or services (including construction).
An acquisition begins at the point when agency needs are established and includes the
description of requirements to satisfy agency needs, solicitation and selection of sources, award
of contracts, contract financing, contract performance, contract administration, and those
technical and management functions directly related to the process of fulfilling agency needs by
contract.

The Acquisition Services Division (BCN) directs the nation-wide program to acquire the
supplies and services needed by NARA units, sets agency procurement policy, oversees the
training of all procurement officials and monitors their adherence to NARA policy and the
Federal Acquisition Regulations (FAR). Contracting officers (CO) are authorized to procure
goods and services in accordance with the FAR, subject to any limitations set forth in their CO
appointment letter or SF 1402 certificate. Only COs acting within the scope of their authority
may enter into contracts on behalf of the government. Buyers are individuals who support a CO
by preparing documentation, conducting market research, entering and maintaining data in
PRISM Finance and Acquisition System, preparing solicitations, administering contracts and
orders, and performing other duties and responsibilities to assist the CO with acquiring supplies
and services on behalf of the agency. The Director of BCN appoints all COs by issuing
warrants.

Field office procurement
COs outside the Washington, D.C., area make purchases, subject to the limitations of their
warranted authority, for their field office(s). CO’s at each Presidential Library, Federal Records
Center, and Regional Records Services Facilities must acquire the items listed on purchase
requests submitted by their individual organization if the procurement falls within their
procurement authority. There are eight COs assigned in NARA field offices. Seven have
warranted authority up to $25,000 and one has warranted authority up to $10,000. In cases when
the CO is not available, or the price exceeds the CO's limitation, the field office must coordinate
its request through its office up to BCN.

In 2011, BCN established a field office support team comprised of three experienced COs that
have oversight responsibility for field office COs and buyers. The support team reviews each
contract to ensure compliance with the FAR and internal NARA policy prior to awarding the
contract. Each review is documented and outlines any errors found and the actions taken to
correct those errors.



                                            Page 4
                         National Archives and Records Administration
                                                                     OIG Audit Report No. 14-05



Federal Acquisition Regulations (FAR)
The FAR is the primary regulation for use by all Federal executive agencies in their acquisition
of supplies and services with appropriated funds. It became effective on April 1, 1984, and is
issued within applicable laws under the joint authorities of the Administrator of General
Services, the Secretary of Defense, and the Administrator for the National Aeronautics and
Space Administration, under the broad policy guidelines of the Administrator, Office of Federal
Procurement Policy, Office of Management and Budget.

The FAR precludes agency acquisition regulations unnecessarily repeating, paraphrasing, or
otherwise restating the FAR. It limits agency acquisition regulations to those necessary to
implement FAR policies and procedures within an agency, and provides for coordination,
simplicity, and uniformity in the Federal acquisition process. It also provides for agency and
public participation in developing the FAR and agency acquisition regulations.

Simplified Acquisition Procedures
Simplified acquisition procedures are the methods prescribed in FAR Part 13 for making
purchases of supplies or services that do not exceed $150,000, with certain exceptions. These
procedures aim to reduce administrative costs, improve opportunities for small businesses,
promote efficiency and economy in contracting, and avoid unnecessary burdens for
agencies and contractors. Field offices CO’s must use FAR Part 13, Simplified Acquisition
Procedures to the maximum extent practicable for purchasing open market supplies and services
not exceeding $25,000.

The Office of Federal Procurement Policy
The Office of Federal Procurement Policy, located within the Office of Management and Budget,
was created to simplify and bring consistency to federal procurement. The Office of Federal
Procurement Policy provides overall procurement policy direction and leadership in developing
CO core competencies and training requirements.




                                            Page 5
                         National Archives and Records Administration
                                                                     OIG Audit Report No. 14-05


Objectives, Scope, Methodology

The objective of the audit was to determine if field office contracts are awarded in accordance
with the Federal Acquisition Regulations and other relevant authorities. We also evaluated the
adequacy of management controls over these acquisitions. All audit work was performed at
Archives II in College Park, MD.

To accomplish our objectives we performed the following:

   	 examined applicable laws, regulations, and NARA guidance including: (a) the Federal
      Acquisition Regulation; (b) NARA’s Procurement Guide; (c) NARA 501, Procurement;
      (d) Simplified Acquisition Procedures Manual for Non-NAA Contracting Officers and
      Buyers, July 1, 2010; (e) Office of Federal Procurement Policy; (f) Competition in
      Contracting Act (CICA); and (g) Government Accountability Office (GAO), Standards
      for Internal Control in the Federal Government;
   	 held discussions with NARA employees and officials in Acquisitions Services Division
      (BCN), the Office of Presidential Libraries (LP), and Archival Field Locations within
      Research Services (R);
   	 reviewed contracts to determine if they were adequately approved and within the CO’s
      certificate of appointment (SF 1402 certificate);
    reviewed CO’s training to determine compliance with training requirements;
    reviewed contract files from Fiscal Year (FY) 2012 and FY2013 to ensure market
      research was conducted and documented, adequate sourcing and competition was
      obtained, sole source awards were appropriately documented and approved, appropriate
      justification and approval was documented for awards not set aside for small businesses,
      awards were not given to contractors on the list of excluded parties, and to determine if
      price analysis and price negotiations were effectively conducted;
    reviewed purchase requisitions for appropriate approval; and

    reviewed contracts to determine if they were closed in accordance with FAR timelines. 


Our audit work was performed between July 2013 and December 2013. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.




                                            Page 6
                         National Archives and Records Administration
                                                                     OIG Audit Report No. 14-05


Audit Results

1. Contracting officers did not meet training requirements.

Field office contracting officers (CO) did not receive required training prior to obtaining their
CO certificate of appointment. In addition, proficiency training was not taken by all field COs in
order to maintain their contracting officer authority. This occurred because BCN management
did not appropriately track training taken by all COs. The FAR states that in selecting COs, the
appointing official shall consider the satisfactory completion of acquisition training courses. It
also states these selections and appointments shall be consistent with Office of Federal
Procurement Policy’s (OFPP) standards for skill-based training in performing contracting and
purchasing duties as published in OFPP Policy Letter No. 05-01, Developing and Managing the
Acquisition Workforce, April 15, 2005. The quality and effectiveness of the federal acquisition
process depends on the development of a capable and competent workforce. Without meeting the
training requirements for obtaining a CO warrant, NARA cannot ensure CO’s have the
competencies necessary to adequately perform contracting and purchasing duties for the agency.

 In April 2005, the Office of Federal Procurement Policy (OFPP) published Policy Letter 05-01,
Developing and Managing the Acquisition Workforce, which required developing a certification
program for contracting professionals in civilian agencies reflecting common standards. The goal
of the certification program is to standardize the education, training, and experience requirements
for contracting professionals, which will improve workforce competencies and increase career
opportunities. The policy letter states employees issued new CO warrants on or after January 1,
2007, regardless of GS series must be certified at an appropriate level to support their warrant
obligations. In response to the OFPP Policy Letter, the Office of Management and Budget
(OMB) established The Federal Acquisition Certification in Contracting (FAC-C) Program
policy by issuing a memorandum (dated January 20, 2006). The memo outlined required
training courses for level I, level II, and level III COs. NARA defines a level I CO as having
authority up to $25,000. Consequently, field office CO’s are level I as their authority levels do
not exceed $25,000. Using the OMB guidelines, NARA further defined the training courses
needed to become a level I CO (see appendix A).

We attempted to review the training certificates for each of the eight field office COs to
determine if the requisite training had been taken. We determined none of the eight field office
COs had taken the required training courses prior to obtaining their CO certificate of
appointment. In addition, seven out of the eight field office COs did not take an elective course
within the last two years as required (see table 1 below). We also determined none of the COs
took sufficient training courses in the past two years to meet the 80 continuous learning points
training requirement stated in the OMB’s FAC-C Program. The Director of Acquisitions stated

                                            Page 7
                         National Archives and Records Administration
                                                                            OIG Audit Report No. 14-05


training has not been appropriately tracked due to other office priorities. She also stated the
limited budget for training has made it difficult for COs to take their training. However, online
training is available.


                                  Table 1: Field Office CO Training
                                              Training Courses Taken
                                                                                              Date of
                Effective                                                                      Last
   Contracting Date of CO                                                                     Elective
   Officer (CO) Warrant   CON 100         CON 110      CON 111      CON 112      CON 120      Course

        1.       4/23/2009   8/15/2009    6/13/2009    4/17/2010    6/18/2010    10/15/2010 1/29/2009

        2.       4/23/2009   5/26/2010    12/17/2010      No           No           No       1/29/2009

        3.       4/23/2009   10/8/2009    11/18/2009   1/27/2010    2/09/2010    5/14/2010 1/29/2009

        4.       4/23/2009   10/19/2009 11/13/2009     1/29/2010    5/19/2010    6/18/2010 1/29/2009

        5.       4/23/2009   10/30/2009   6/11/2011       No           No           No       6/18/2009

        6.       4/23/2009   6/18/2009     7/8/2009    7/27/2009    11/11/2009    2/5/2010   12/30/2010

        7.       5/10/2011   12/17/2009 12/28/2009      1/8/2010    1/11/2010       No       1/13/2010

        8.       4/23/2009   10/29/2009   11/3/2009    12/31/2009    1/9/2010    11/12/2010 6/15/2012


Training requirements ensure COs’ skills are up-to-date with new contracting regulations and
best practices. By not ensuring training requirements are being met, NARA cannot ensure all
COs maintain professional proficiency and remain qualified.

Recommendation 1

The Chief Financial Officer should:

   a)	 Establish and implement a tracking system to document and monitor training for all
       contracting officers ensuring compliance with the Federal Acquisition Certification in
       Contracting policy memorandum.
   b)	 Consider terminating field office contracting officers warrants until all initial training
       requirements are met.

Management Response


Management concurs with this recommendation. 



                                            Page 8
                         National Archives and Records Administration
                                                                            OIG Audit Report No. 14-05


2. Some contracts were not closed in accordance with Federal
   Acquisition Regulations timelines.
Completed contracts were not closed out within the timelines established by the FAR. This
condition exists because some field office COs were not adequately trained on when to close out
contracts, CO’s were unaware of when final invoices were received and paid, and the closing of
contracts was not a priority. According to FAR 4.804-1(a) files for contracts awarded using
simplified acquisition procedures should be considered closed when the CO receives evidence of
receipt of property and final payment, unless otherwise specified by regulation. In addition,
NARA’s Simplified Acquisition Procedures Manual for Non-NAA Contracting Officers and
Buyers states CO and buyers should closeout orders as quickly as possible. Allowing contracts to
remain open beyond the limitations in FAR 4-804.1 could result in obligations remaining idle
that may be needed for other projects, or pay expenditures on other contracts..

According to FAR 4.804-4 a contract is considered physically complete when the contractor has
completed performance and the government has inspected and accepted the supplies and
services. Furthermore, all optional provisions, if any, must have expired. During our review we
found that physically complete contracts were not being closed in a timely manner as defined in
FAR 4.804-1. We sampled 50 contracts and noted 40 were closed or should have been closed. Of
those 40 contracts we noted exceptions with 34 of them. Some contracts remained open beyond
the receipt of the final invoice by as much as 15 months.

Specifically we noted the following with the 34 contracts:

    	 Ten contracts were closed two or more months after the goods or services were received,
       and final payment had been made (see table 2).
    	 Twenty-three contracts were physically complete but were not closed two or more
       months after the goods or services were received and final payment had been made (see
       table 3).
    	 One contract had not been closed because the vendor is inactive in the System for Award
       Management (SAM)2 and PRISM will not allow closeout. As of November 15, 2013 it
       had been 11 months since the final payment had been made. According to the CO on the
       contract, the vendor has been unresponsive to requests to become active in the SAM
       system. We were unable to verify any attempts to contact the vendor. There was
       approximately $11,537 in funds that needed to be de-obligated on this contract and until
       the contract is closed the agency is not able to use these funds for other projects (see table
       4).




2
 The System for Award Management (SAM) is the Official U.S. Government system that consolidated the
capabilities of three other government procurement sites.
                                               Page 9
                            National Archives and Records Administration
                                                                             OIG Audit Report No. 14-05



               Table 2: Contracts Closed Two or More Months after the Goods or Services Were Received and
                                                    Final Payment Made
                                                                                         Months
                                                                                         Between
                                                                              Days         Last
                                                                            Between      Invoice
                                                                              Last         Pay
                                                                          Invoice Pay     Date
                                                                            Date and       and
                              Award         Date of Last                    Closeout     Closeout      Funds
       Contract Number         Date       Invoice/Payment Closeout Date       Date        Date      De-obligated
1.     NAMA-12-F-0049        3/1/2012       4/12/2012        6/6/2012          55          2             0
2.     NAMA-12-F-0132        8/7/2012       8/31/2012        11/5/2012         66          2             0
3.     NAMA-13-F-0057        4/4/2013       7/23/2013       11/13/2013        113          4             0
4.    NAMA-LP-12-M-0007      3/28/2012      5/24/2012        9/19/2012        118          4           $0.01
5.     NAMA-13-F-0029        11/8/2012      6/24/2013       11/14/2013        143          5             0
6.    NAMA-LP-13-F-0007      6/10/2013      6/12/2013       11/14/2013        155          6             0
7.    NAMA-LP-12-F-0022      10/1/2012      10/21/2012       5/16/2013        207          7             0
8.     NAMA-13-F-0056        3/14/2013       4/5/2013       11/13/2013        222          7             0
9.     NAMA-13-M-0016       11/27/2012      12/28/2012      11/13/2013        320          11            0
10.   NAMA-LP-12-M-0014      7/11/2012       9/7/2012       11/18/2013        437          15            0




                                                  Page 10
                               National Archives and Records Administration
                                                                                      OIG Audit Report No. 14-05

                Table 3: Contracts Not Closed Two or More Months after the Goods or Services Were Received and
                                                Final Payment Had Been Made
                                                                                             Months
                                                                                 Days       Between
                                                                               Between        Last
                                                                                 Last        Invoice
                                                                                Invoice     Pay Date
                                                                               Pay Date        and
                                                   Date of Last    Closeout       and       Closeout    Funds to be
           Contract Number       Award Date      Invoice/Payment     Date     11/15/2013      Date      De-obligated
1.        NAMA-LP-12-F-0009        5/18/2012            9/5/2013          N/A           71              2            0
2.        NAMA-LP-13-F-0006        5/14/2013           8/27/2013          N/A           80              3            0
3.        NAMA-LP-12-F-0012        5/30/2012           8/22/2012          N/A           85              3            0
4.         NAMA-13-F-0113           8/1/2013           8/19/2013          N/A           88              3            0
5.        NAMA-LP-13-T-0008         2/1/2013           8/15/2013          N/A           92              3            0
6.         NAMA-12-F-0134          8/10/2012           8/15/2013          N/A           92              3            0
7.         NAMA-13-M-0058          5/17/2013           7/11/2013          N/A           127             4            0
8.    NAMA-LP-13-M-0004            5/21/2013            7/8/2013          N/A           130             4             0
9.         NAMA-13-M-0065          5/29/2013            7/1/2013          N/A           137             5          $72.69
10.        NAMA-13-M-0055          6/17/2013           6/20/2013          N/A           148             5             0
11.        NAMA-13-M-0057          5/16/2013           6/25/2013          N/A           143             5            0
12.        NAMA-13-F-0068          4/30/2013           5/20/2013          N/A           179             6             0
                                                                  3
13.   NAMA-LP-12-M-0009             5/1/2012          4/19/2013           N/A           210             7             0
14.        NAMA-13-M-0028          1/16/2013           4/2/2013           N/A           227             8             0
15.   NAMA-LP-13-M-0001            6/10/2013           2/13/2013          N/A           275             9           $251
16.        NAMA-13-F-0005          9/24/2012          11/30/2012          N/A           350             12          $100
17.       NAMA-LP-12-F-0028        9/20/2012          11/14/2012          N/A           366             12            0
18.       NAMA-LP-12-F-0024        8/22/2012           11/5/2012          N/A           375             13            0
19.        NAMA-12-M-0054          10/26/2012         10/31/2012          N/A           380             13            0
20.        NAMA-12-T-0001          10/1/2012          10/22/2012          N/A           389             13            0
21.   NAMA-LP-12-M-0019            8/21/2012           9/27/2012          N/A           414             14            0
22.   NAMA-LP-12-M-0017            7/25/2012           9/19/2012          N/A           422             14            0
23.       NAMA-LP-12-F-0020         8/7/2012           8/29/2012          N/A           443             15            0




                               Table 4: Contract Not Closed Because the Vendor is Inactive in SAM
                                                                     Days Between      Months Between
                                                                     Last Invoice      Last Invoice Pay          Funds to be
                                                    Date of last       Pay Date       Date and Closeout              De-
           Contract Number       Award Date       Invoice/Payment     11/15/2013              Date                obligated
1.    NAMA-LP-12-T-0023            11/30/2011          12/21/2012            329                   11             $11,537.50

      3
       We were unable to obtain a copy of the last invoice approval form for this contract. This award was for a service
      agreement for 2012 and a new contract was awarded for the 2013 service agreement. We used the award date for the
      2013 contract as a basis to determine when the 2012 contract should have been closed.
                                                      Page 11
                                   National Archives and Records Administration
                                                                     OIG Audit Report No. 14-05




We interviewed field office COs and buyers and several stated they did not know what the
process was for closing out contracts. Others stated contract closeout had not been a priority.
Although many of the contracts we tested did not have funds to be de-obligated, there is still the
risk of funds remaining idle on contracts that are not closed timely.

Recommendation 2

The Chief Financial Officer should ensure all field office COs and buyers are adequately trained
on how and when to close out NARA contracts. Additionally, periodic monitoring and testing of
closeout procedures should be conducted to ensure contracts are closed out timely.

Management Response

Management concurs with this recommendation.


3. All contracts are not being reviewed by the field office support
   team.
All field office contracts are not being reviewed by a field office support CO for compliance with
the FAR prior to award. This condition exists because there is no process in place to ensure the
field office support COs review every contract. In 2011, BCN established the field office support
team to provide oversight responsibility for field office COs and buyers and to ensure
compliance with the FAR, and internal NARA policy, prior to awarding the contracts within the
field. Since then, it has been the practice for the support team COs to review each field office
contract prior to award. However, under the current system, field office COs notify the field
office support CO of a need to review the contract. If this notification is not done, the contract
will not be reviewed as there is no other mechanism to alert the field office support team that a
review is needed. By not having this review take place contracts could potentially be awarded
that are not in compliance with the FAR.

We noted 4 out of the 50 contracts we sampled were not reviewed by a field office support CO.
When we initially reviewed the contract files we noted three did not fully document all aspects of
the procurement as some documentation was missing. We were later able to obtain the required
documentation; however, we could not determine that an excluded party review was completed
prior to awarding the contract. We interviewed the CO of these three contracts, and she stated
these contracts were not reviewed because she forgot to inform a field office CO the review
needed to be done. We noted the review process was not a documented procedure, but has been a
practice in place since the creation of the field office support team. Each review is to be


                                            Page 12
                         National Archives and Records Administration
                                                                      OIG Audit Report No. 14-05


documented on a review form outlining any errors found and the actions taken to correct those
errors. The review form is included in the contract file evidencing the review.

The field office support team was put in place due to their experience in contracting and
experience with the FAR. The FAR contains many guidelines and rules that field office COs may
not be experienced with due to the low volume and types of contracts they work on. Because of
this, it is imperative that each field office CO has a review done of their contracts to ensure
compliance with the FAR.

Recommendation 3

The Chief Financial Officer should establish and implement a formal, documented process for
informing the field office support team of field office contracts requiring review prior to award.

Management Response

Management concurs with this recommendation.

4. Guidance for approval of small and small disadvantaged business
   utilization exceptions is not consistent.

The guidance for determining who should approve small and small disadvantaged business
utilization exceptions is not consistent. This inconsistency exists because NARA’s procurement
policy has not been updated. Internal NARA procurement policy states the Small and Small
Disadvantaged Business Utilization Specialist must approve all open market purchases between
$2,500 and $100,000 that are not reserved exclusively for small business concerns. However, the
Simplified Acquisition Procedures Manual dated July 1, 2010 states if the CO does not set the
requirement aside for small business, a small business exemption must be approved by the BCN
Field Office CO. GAO’s Standards for Internal Control in the Federal Government, states
management is responsible for developing the detailed policies, procedures, and practices to fit
their agency’s operations and to ensure they are built into and are an integral part of operations.
Not having consistent policies could result in inconsistent process operations or awards not being
given to small and disadvantaged businesses in accordance with the FAR.

According to FAR19.502-2(a) each acquisition of supplies or services with an anticipated dollar
value exceeding $3,000, but not over $150,000, is automatically reserved exclusively for small
business concerns and generally shall be set aside for small business. If the CO does not proceed
with the small business set-aside and purchases on an unrestricted basis, the CO shall include in
the contract file the reason for this unrestricted purchase.

Seven out of the 50 field office contracts we tested were not reserved for small business
concerns. Each of these contracts had a request for exemption including justification for not
                                            Page 13
                         National Archives and Records Administration
                                                                    OIG Audit Report No. 14-05


setting aside the award for small business concerns in accordance with FAR 19.502-2 (a). In
each of these cases, the CO signed the exemptions form. NARA’s internal policy on who should
approve these exemptions is not consistent, and we were unable to determine if these awards
were approved in accordance with the correct NARA policy. The Director of Acquisitions agreed
the policy needs to be updated to be consistent. By not having a consistent policy, there could be
inconsistencies in operations and these exemptions could be inappropriately approved.

Recommendation 4

The Chief Financial Officer should update NARA policies to ensure the guidance for approval of
small and small disadvantaged business utilization exceptions is consistent.

Management Response

Management concurs with this recommendation.




                                            Page 14
                         National Archives and Records Administration
                                                                               OIG Audit Report No. 14-05


Appendix A – Level I Contracting Officer Training
Requirements


 Title/Single        Grade    Experience         Education           Initial Training*          Proficiency
  Purchase           Level                                                                       Training
 Dollar Limit                                                                                   Required*

Level I              GS-7     1 year          A 4-year course     Completion of the          One (1) Elective
Contracting          and      experience      of study leading    following Courses is       Training Course
Officer              Above    as GPC          to a bachelor’s     required prior to          every two (2)
Dollar Limit:                 cardholder      degree              Level I certification:     years.
Typically                     and/or 1                 OR         - CON 100: Shaping
$2,501 to                     year                                    Smart Business         CLT courses
                                              at least 24
$25,000                       specialized                             Arrangements           must be timely
                                              semester hours
(SF 1402 will                 experience                          - CON 110: Mission         completed to
                                              from among the
specify                       as a                                   Support Planning        maintain a CO
                                              following
authority, i.e.,              Contract                                                       Warrant
                                              disciplines:        - CON 111: Mission
open market                   Manager,
                                              accounting,            Strategy
supply                        Contract                                                       BCN requires the
                                              business,              Execution
purchases,                    Specialist,                                                    first elective
                                              finance, law,
utilities, FSS,               or
                                              contracts,
                                                                  - CON 112: Mission         course to be CON
etc.)                         Purchasing                             Performance             237, Simplified
                                              purchasing,
                              Agent                                  Assessment              Acquisition, or an
                                              economics,
                                              industrial          - CON 120: Mission         approved
                                              management,            Focused                 equivalent.
                                              marketing,             Contracting
                                              quantitative
                                                                                             All electives must
                                              methods, or
                                                                                             be approved by
                                              organization
                                                                                             BCN prior to
                                              and
                                                                                             enrollment.
                                              management.
*All equivalent training must be approved by BCN. Proficiency training must be completed to maintain contracting
officer authority.




                                                Page 15
                             National Archives and Records Administration
                                                         OIG Audit Report No. 14-05


Appendix B – Acronyms and Abbreviations

BCN         Acquisitions Services Division
CICA        Competition in Contracting Act
CLT         Continuous Learning Training
CO          Contracting officer
FAC-C       Federal Acquisition Certification in Contracting
FAR         Federal Acquisition Regulations
GAO         Government Accountability Office
GPC         Government Purchase Card
GS          General Schedule
LP          Office of Presidential Libraries
NARA        National Archives and Records Administration
OFPP        Office of Federal Procurement Policy
OIG         Office of Inspector General
OMB         Office of Management and Budget
PMRS        Performance Measurement Reporting System
R           Research Services
SAM         System for Award Management




                                 Page 16
              National Archives and Records Administration
                                                                                 OIG Audit Report No. 14-05 



Appendix C – Management’s Response to the Report 




     ~

      NATIONAL
     ARCHIVES



          Date:                  FEB IIi 2014
          To:                James Springs, Acting Inspector General
          From:              David S. Ferriero, Archivist of the United States
          Subject:      OIG Draft: Audit 14-05, Audit of NARA's Acquisition Activity within NARA
          Field Offices




    Thank you for the opportunity to provide comments on this draft: report. We appreciate
    your willingness to meet and clarify language in the report.

    We concur with the four recommendations in this audit, and we will address them further
    in our action plan.




    DAVIDS. FERRIERO
    Archivist of the United States




    NATIONAL t\R.CHIVF.S •1Jid
    RECORDS ADM INISHATION

         860 1 ADHI' I I I ROAD
    COI.LEGE fARK. MD 20740·60111
           WW14'.1'lNhivo.g(Jv




                                                     Page 17 

                                  National Archives and Records Administration
                                                                OIG Audit Report No. 14-05


Appendix D – Report Distribution List

Archivist of the United States (N)

Deputy Archivist of the United States (ND) 

Chief Operating Officer (C) 

Executive of Business Support Services (B) 

Chief Financial Officer (BC) 

Director, Acquisitions (BCN)





                                           Page 18
                        National Archives and Records Administration
